HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Kansas," (A-07-08-03102)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in Kansas," (A-07-08-03102)
December 18, 2007
Complete Text of Report is available in PDF format (180 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The Kansas Health Policy Authority (the State agency)
implemented policies or procedures to resolve the recommendations made in our
previous audit of the Kansas drug rebate program (A-07-03-04017).  Additionally, the State
agency established controls over collecting rebates on single source drugs
administered by physicians.  This report contains no recommendations.